              Monitoring of Accepted Offers in Compromise
              Is Generally Effective, but Some Improvement
                                Is Needed

                                   January 2004

                       Reference Number: 2004-30-043




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    January 29, 2004



       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                        Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

       SUBJECT:                     Final Audit Report - Monitoring of Accepted Offers in
                                    Compromise Is Generally Effective, but Some Improvement Is
                                    Needed (Audit # 200330008)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       monitoring of accepted Offers in Compromise (OIC). The overall objective of this review
       was to determine the effectiveness of the IRS’ monitoring of accepted OICs to ensure
       the taxpayers comply with the terms of the agreements and future filing and paying
       compliance terms.
       In summary, the IRS is generally effective in monitoring accepted OICs to ensure
       compliance with the OIC terms and was resuming collection action on taxpayers’
       accounts when their OICs were defaulted. Our review of 84 OICs that were accepted in
       Fiscal Year (FY) 1999 determined that 81 taxpayers were in compliance with all the
       terms of the OICs at the time of our review.
       Although the monitoring of accepted OICs is generally effective, better use of the
       available program tools will further improve the monitoring. The Automated Offer In
       Compromise (AOIC)1 System’s follow-up and journal (payments) screens and OIC
       default transcripts were not always used to help monitor the cases for compliance with
       OIC payment terms or the future filing of returns and payment of taxes. The IRS had
       not resumed collection activity on the accounts of 26 taxpayers with approximately
       $1.9 million in liabilities when the taxpayers had defaulted on their OICs. We recognize


       1
        The AOIC System is the IRS database used to monitor OIC case processing; it was designed to control, track, and
       monitor OICs.
                                                         2


that not all of the balance due amounts will be collected because it is likely that some of
the taxpayers are unable to fully pay.
In addition, controls needed to be improved over newly accepted OICs to ensure they
were received in the campuses2 and over OICs that were returned to the originating
offices for additional information to ensure they were timely returned to the campuses
for further monitoring.
Finally, Federal Tax Liens are not always timely released when the offer amount has
been fully paid. Our review of 84 OICs determined that after the OIC amount had been
fully paid, Federal Tax Liens were not released within the required 30 calendar days for
37 taxpayers and had not been released at all for 9 taxpayers at the time of our review.
We recommended that the Director, Filing and Campus Compliance, Small Business/
Self-Employed (SE/SE) Division, require use of the follow-up screen and the generation
and review of follow-up screen due dates reports. The Director should also
reemphasize the requirements to use the payment due dates on the journal (payments)
screen and to generate and review journal payment due reports. In addition, the
Director should require OIC files to include documentation of the results of review of
OIC default transcripts.
The Director should require the campuses to periodically generate a list of newly
accepted OICs, to validate the receipt of the case files, and to follow up with the
originating offices if the files have not been received. The Director should also create a
new status code on the AOIC System for newly accepted OICs that are returned to the
originating offices for additional information and establish criteria and timeliness
guidelines for working and returning the OICs to the campuses. Campuses should be
required to follow up with those offices to ensure the files are timely returned for
monitoring.
The Director should direct campuses to generate a list of overdue OIs for forwarding to
the SB/SE Division Territory Offices or Centralized Offer in Compromise (COIC) site3
Directors. The Director should also require campuses to periodically generate reports
of OICs that have been in certain statuses (such as potential default, new, or Other
Investigation (OI)4) on the AOIC System for 1 year or longer and require a review to
determine if they are in the correct status and if timely and effective action is being
taken. In addition, the Director, Payment Compliance, SB/SE Division, should direct
Territory Offices or COIC sites to timely work and respond to OIs received from the
campus OIC units.


2
  An IRS campus is the data processing arm of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.
3
  The COIC sites operate at two IRS campuses. They are responsible for making the initial processability
determination for all OICs received and for completing the perfection process, case building, and initial
investigation for individual wage earners, self-employed individuals without employees, or taxpayers that operate a
sole proprietorship without employees.
4
  An OI is the AOIC status that an OIC is put into when it is returned to the originating office for additional
information.
                                                        3


Finally, the Director, Filing and Campus Compliance, SB/SE Division, should ensure
timely implementation of the process allowing OIC examiners access to the Automated
Lien System (ALS)5 to release liens and review the process to ensure liens are being
correctly released.
Management’s Response: The Commissioner, SB/SE Division, agreed with the
recommendations in the report and agreed that there is a potential for increased
revenue. However, since all the balance due amounts may not be collected, the SB/SE
Division did not agree with the entire $1.9 million figure. SE/SE Division management
advised that they have made numerous revisions to the Internal Revenue Manual (IRM)
to address our recommendations and that the revisions are in a pending publication of
the IRM. In addition, they have created two new subcodes (missing case and
incomplete case) under the AOIC System’s status code New Work. They stated they
have established a 15-day response time for originating offices to submit or perfect
incomplete work, and have revised the IRM to ensure the files are returned timely.
SB/SE Division management will also review existing IRM guidelines to determine
situations in which the use of an OI to resolve back-end OIC issues is necessary to
ensure OI requests are appropriate to maximize field resources. Once this review is
complete, the IRM will be updated with procedural guidance for campus OIC units and
direction will be issued to the field regarding the need to process this work timely.
SB/SE Division management also advised that an ALS train-the-trainer session was
provided to the Wage and Investment Division and SB/SE Division management and
lead examiners. Campus examiners can now access the ALS database and request
release of Federal Tax Liens following full payment of the offer amount. This process
will be reviewed during scheduled visits to the campuses during the second quarter of
FY 2004. Management’s complete response to the draft report is included as
Appendix V.
Office of Audit Comment: Although SB/SE Division management agreed with the
recommendations and plans to take appropriate corrective actions, they did not agree
with the total amount of the potential for increased revenue since all the balance due
amounts may not be collected. While we recognize that not all of the balance due
amounts will be collected because it is likely that some of the taxpayers will be unable to
fully pay, no collection activity was taking place on these accounts at the time of our
review. Therefore, we did not adjust the potential outcome measures in this report.
Copies of this report are also being sent to IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.




5
 The ALS is the IRS database that prints Notices of Federal Tax Liens, stores taxpayer information, and documents
all lien activity.
             Monitoring of Accepted Offers in Compromise Is Generally Effective,
                              but Some Improvement Is Needed




                                                 Table of Contents


Background ............................................................................................... Page 1
Monitoring of Accepted Offers and Resuming
Collection Action Upon Default Are Generally Effective ............................ Page 2
Better Use of Available Program Tools Will Further
Improve the Monitoring of Accepted Offers ............................................... Page 3
         Recommendations 1 through 3: .................................................... Page 7

Controls Need to Be Improved Over Newly
Accepted Offers and Offers That Are Returned
to the Field for Other Investigation............................................................. Page 8
         Recommendations 4 through 6: .................................................... Page 11
         Recommendations 7 and 8: .......................................................... Page 12

Federal Tax Liens Are Not Always Released When
the Offer Amount Has Been Fully Paid...................................................... Page 12
         Recommendation 9: ..................................................................... Page 14

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 15
Appendix II – Major Contributors to This Report........................................ Page 17
Appendix III – Report Distribution List ....................................................... Page 18
Appendix IV – Outcome Measures ............................................................ Page 19
Appendix V – Management’s Response to the Draft Report ..................... Page 20
         Monitoring of Accepted Offers in Compromise Is Generally Effective,
                          but Some Improvement Is Needed

                                An Offer in Compromise (OIC) is an agreement between the
Background
                                Internal Revenue Service (IRS) and a taxpayer that settles a
                                tax liability for payment of less than the full amount owed.
                                The IRS is granted authority to compromise tax liabilities in
                                Internal Revenue Code (I.R.C.) § 7122.1
                                When the IRS receives an OIC, it is entered on the
                                Automated Offer in Compromise (AOIC) System. The
                                AOIC System tracks and controls OICs and generates
                                forms, letters, and managerial reports. After an OIC is filed,
                                an OIC examiner will evaluate the offer to determine if it
                                should be accepted or rejected. The decision to accept an
                                OIC is based on analysis of the taxpayer’s facts,
                                circumstances, and financial situation. One of the
                                conditions of an accepted OIC is that the taxpayer agrees to
                                comply with all the provisions of the I.R.C. regarding the
                                filing of returns and paying of taxes for 5 years or until the
                                offer amount is paid in full, whichever is longer.
                                Once an OIC is accepted, the AOIC System automatically
                                transfers control of the OIC from a field office or a
                                Centralized Offer in Compromise (COIC) site2 to an OIC
                                unit at an IRS campus.3 The OIC units are responsible for
                                monitoring accepted OICs to ensure taxpayers comply with
                                the OIC payment terms and the 5-year compliance
                                requirements. The AOIC System assigns status codes at
                                various points in OIC case processing to monitor the status
                                of the OIC. The AOIC System can be used to help monitor
                                the OIC terms and to manage inventory and ensure any
                                necessary actions are timely taken.
                                If a taxpayer fails to meet any of the terms of the accepted
                                OIC, the OIC may be defaulted and all liabilities previously
                                eliminated as a result of the OIC should be reinstated. A

                                1
                                  I.R.C. § 7122 (2002).
                                2
                                  The COIC sites operate at two IRS campuses. They are responsible for
                                making the initial processability determination for all OICs received and
                                for completing the perfection process, case building, and initial
                                investigation for individual wage earners, self-employed individuals
                                without employees, or taxpayers that operate a sole proprietorship
                                without employees.
                                3
                                  An IRS campus is the data processing arm of the IRS. The campuses
                                process paper and electronic submissions, correct errors, and forward
                                data to the computing centers for analysis and posting to taxpayer
                                accounts.
                                                                                                 Page 1
           Monitoring of Accepted Offers in Compromise Is Generally Effective,
                            but Some Improvement Is Needed

                                  default may occur because a taxpayer fails to remit any OIC
                                  payment due, does not return overpayments erroneously
                                  refunded, or fails to timely file subsequent returns and pay
                                  all taxes due during the 5-year compliance period.
                                  This review was performed at the Austin, Texas, and
                                  Philadelphia, Pennsylvania, Campuses from January
                                  through August 2003. The audit was conducted in
                                  accordance with Government Auditing Standards. Detailed
                                  information on our audit objective, scope, and methodology
                                  is presented in Appendix I. Major contributors to the report
                                  are listed in Appendix II.
                                  Review of a statistical sample of 84 of 28,018 “doubt as to
Monitoring of Accepted Offers
                                  collectibility” OICs accepted in Fiscal Year (FY) 1999
and Resuming Collection Action
                                  showed virtually all of the taxpayers were in compliance
Upon Default Are Generally
                                  with all the terms of the OIC at the time of review. Only
Effective
                                  3 (4 percent) taxpayers were not in compliance with the OIC
                                  payment terms or the 5-year compliance requirements at the
                                  time of our review, and their OICs should have been
                                  defaulted.
                                  Our review of the remaining 81 OICs determined:
                                     •   In 48 OICs, the taxpayers voluntarily complied with
                                         the payment terms and the 5-year compliance
                                         requirement.
                                     •   In 33 OICs, while the taxpayers did not timely
                                         comply with 1 or more of the offer terms, the IRS
                                         identified the noncompliance and took appropriate
                                         action to resolve it.
                                             o In 15 OICs, the noncompliance was resolved
                                               after the taxpayer received 1 or more of the
                                               normal collection notices issued by the IRS.
                                             o In 12 OICs, the noncompliance was resolved
                                               after contact with the OIC units.
                                             o In 6 OICs, the noncompliance was resolved
                                               after a combination of IRS notices and
                                               contacts with the OIC units.
                                  In addition, the IRS is generally resuming collection action
                                  on taxpayers’ accounts when their OICs have been
                                  defaulted. Analysis of the 28,018 OICs accepted in
                                                                                        Page 2
             Monitoring of Accepted Offers in Compromise Is Generally Effective,
                              but Some Improvement Is Needed

                                    FY 1999 determined that 2,119 had been defaulted at the
                                    time of our review. Review of a judgmental sample of 75 of
                                    these defaulted OICs and their 322 related tax periods
                                    showed:
                                       •   Collection action was timely resumed on 209 tax
                                           periods after the OICs were defaulted.
                                       •   Collection action was not needed on 78 periods,
                                           mostly because the liabilities had been fully paid
                                           prior to the default or the periods were placed back
                                           into the Currently Not Collectible status they were in
                                           prior to the OICs being filed.
                                       •   While the remaining 35 periods were not
                                           immediately placed in active collection status,
                                           13 had been fully paid and 18 had been subsequently
                                           placed in an active collection status at the time of
                                           our review. A new OIC was filed on one period, and
                                           the remaining three periods are below the tolerance
                                           level for collection activity.
                                    While the monitoring of accepted OICs is generally
Better Use of Available Program
                                    effective, better use of the available program tools will
Tools Will Further Improve the
                                    further improve the monitoring. Analysis of the inventory
Monitoring of Accepted Offers
                                    of accepted OICs in 2 campuses determined that, at the time
                                    of our review, there were 1,788 OICs in potential default
                                    status for noncompliance with either the 5-year requirement
                                    (1,203) or the OIC payment terms (585).
                                    The IRS identified the potential default more than 1 year
                                    prior to our review in 424 (24 percent) of these 1,788 OICs;
                                    however, it did not always take timely or effective actions to
                                    address the noncompliance. Review of 40 of the 424 OICs
                                    determined the campuses should have defaulted 26 of the
                                    OICs from 1 to 45 months (an average of 25 months) prior
                                    to our review.
                                    Analysis of the accepted OIC inventory at the other
                                    6 campuses that monitor accepted OICs found
                                    3,967 additional OICs that the IRS had identified as being in
                                    potential default status for noncompliance with either the
                                    5-year requirement or the payment terms.
                                    In 585 (15 percent) of the 3,967 OICs, the IRS identified the
                                    potential default more than 1 year prior to our review.
                                                                                           Page 3
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                 but Some Improvement Is Needed

                       While we cannot statistically project how many of these
                       585 OICs should have been defaulted, we estimate about
                       380 should have been.
                       The AOIC System has several tools designed to help in the
                       monitoring of accepted OICs to ensure noncompliance is
                       timely identified and action is timely taken. However, the
                       campuses visited were not always using several of these
                       tools.
                       The AOIC System’s follow-up screen is not always being
                       used
                       When future actions are required on OICs either by IRS tax
                       examiners who monitor the cases or by taxpayers, the
                       actions and due dates may be entered on the AOIC System’s
                       follow-up screen. A follow-up list report may then be
                       generated to alert examiners of cases needing specific
                       actions.
                       According to the AOIC User Guide, examiners should use
                       the follow-up screen as a reminder when future actions are
                       required. Management at one campus advised us that the
                       examiners are required to use the follow-up screen, while
                       management at another campus said it was not required.
                       In 27 of the 40 OICs reviewed, examiners either did not
                       enter the necessary follow-up actions and due dates on the
                       follow-up screens (10 OICs) or entered follow-up actions
                       but did not take them (17 OICs). The taxpayers were not in
                       compliance with the payment terms or future compliance
                       requirements in 23 of these 27 OICs, so the OICs should
                       have been defaulted.
                       Proper use of the follow-up screen would help ensure that
                       taxpayers take the actions promised or that tax examiners
                       identify those cases in which the taxpayers have not
                       responded to requests for actions made to them.
                       The AOIC System’s payment due date on the journal
                       (payments) screen is not always being used
                       After receipt of an accepted OIC, the OIC examiner is
                       required to set up a payment journal on the AOIC System to
                       post payments and establish the next payment due date and
                       amount. The next payment due date must be updated after
                       receipt of each payment. OIC examiners should review
                                                                            Page 4
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                 but Some Improvement Is Needed

                       OICs weekly for missing payments. The AOIC System’s
                       journal payment due report can be generated to alert
                       examiners of all payments due for a specified time period.
                       According to management at the two campuses visited, OIC
                       examiners are required to use the journal screen, but only
                       one campus requires the generation of the journal payment
                       due report.
                       In 13 of the 40 OICs reviewed, the OIC examiners either did
                       not enter the OIC payment due date in the journal screen
                       (8 OICs) or entered the due date but did not take timely
                       action when the due date was missed (5 OICs).
                       In 4 of the 13 OICs, taxpayers timely paid the OIC without
                       this control. In 1 additional case, while the OIC payment
                       was made, it was paid 6 months past the due date. In the
                       remaining 8 OICs, the IRS identified the missed payment
                       but not until 2 to 16 months (an average of 8 months) past
                       the due date. These eight taxpayers had still not made the
                       OIC payments at the time of our review, and seven of the
                       OICs should have been defaulted. In the remaining case,
                       the taxpayer is in bankruptcy.
                       Proper use of the journal screen would help examiners
                       identify any missed payments to take appropriate actions.
                       OIC default transcripts are not always being used
                       When an OIC has been accepted, the taxpayer agrees to
                       timely file all tax returns and pay all taxes during a 5-year
                       compliance period. To systemically monitor this, an
                       indicator code is input on the taxpayer’s Master File4
                       account. During the next 5 years, if any tax period after the
                       acceptance date goes into a return delinquency status or 1 of
                       several balance due statuses, a default transcript is generated
                       to the OIC unit alerting it to the potential default condition.
                       The OIC examiner is required to research the account to
                       determine if the noncompliance still exists and, if it does, to
                       contact the taxpayer to resolve it.



                       4
                         The Master File is the IRS database that stores various types of
                       taxpayer account information. This database includes individual,
                       business, and employee plans and exempt organizations data.
                                                                                        Page 5
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                 but Some Improvement Is Needed

                       For the 40 OICs reviewed, there were 158 tax periods
                       subsequent to the date the OICs were accepted requiring the
                       timely filing and paying of Federal taxes. In 66 of these
                       158 tax periods, the periods either went into a return
                       delinquency status or 1 of several balance due statuses, so
                       default transcripts should have been issued. Review of the
                       OIC case files determined the receipt of the default
                       transcripts and the results of their reviews are not always
                       documented. Reviews of the transcripts could have helped
                       identify the potential default to take appropriate action.
                       Our review of the case files specifically determined:
                          •   The receipt of the transcript was documented for five
                              tax periods. For one other period, documentation
                              was not applicable, since the transcript was
                              generated prior to the OIC being assigned to an
                              examiner.
                          •   While the receipt of the transcript was not
                              documented, the noncompliance was notated for
                              39 periods or subsequently corrected by the taxpayer
                              for 2 periods.
                          •   The returns were filed or the liabilities were paid for
                              eight tax periods shortly after the transcripts should
                              have been generated; therefore, they would not have
                              helped in identifying the noncompliance.
                          •   One OIC with four tax periods had recently been
                              defaulted.
                          •   The taxpayers were still in noncompliance at the
                              time of our review for seven tax periods involving
                              six OICs, so the OICs should be defaulted.
                       While both campuses visited require the review of default
                       transcripts, neither requires documentation of the receipt or
                       results of review. This documentation would ensure
                       management that the program to generate the transcripts is
                       working correctly and that the transcripts are being properly
                       reviewed and action is being taken on noncompliance.




                                                                               Page 6
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                 but Some Improvement Is Needed

                       Recommendations

                       The Director, Filing and Campus Compliance, Small
                       Business/Self-Employed (SB/SE) Division, should:
                       1. Require use of the follow-up screen and the generation
                          and review of the follow-up screen due dates report.
                       Management’s Response: SB/SE Division management has
                       revised the Internal Revenue Manual (IRM) to include
                       instructions requiring the use of the follow-up screen. The
                       IRM has also been updated instructing management to
                       conduct bimonthly reviews of the follow-up listing. These
                       revisions are in a pending publication of the IRM.
                       Office of Audit Comment: Although SB/SE Division
                       management agreed with the recommendations and plans to
                       take appropriate corrective actions, they do not agree with
                       the total amount of the potential for increased revenue since
                       all the balance due amounts may not be collected. While we
                       recognize that not all of the balance due amounts will be
                       collected because it is likely that some of the taxpayers will
                       be unable to fully pay, no collection activity was taking
                       place on these accounts at the time of our review.
                       Therefore, we did not adjust the potential outcome measures
                       in this report.
                       2. Reemphasize the requirements to use the payment due
                          dates on the journal (payments) screen and to generate
                          and review journal payment due reports.
                       Management’s Response: SB/SE Division management has
                       revised the IRM to instruct OIC tax examiners to generate
                       the monthly Journal Payment Due report and to instruct
                       management to generate and review the report monthly.
                       These revisions are in a pending publication of the IRM.
                       3. Require documentation of the results of review of
                          default transcripts in the OIC files.
                       Management’s Response: SB/SE Division management has
                       revised the IRM by adding instructions to document the
                       OIC case history with the receipt date and results of all
                       transcripts. These revisions are in a pending publication of
                       the IRM.

                                                                              Page 7
             Monitoring of Accepted Offers in Compromise Is Generally Effective,
                              but Some Improvement Is Needed

                                    Newly accepted offers are not timely received at the
Controls Need to Be Improved
                                    campuses
Over Newly Accepted Offers and
Offers That Are Returned to the     When an OIC is accepted by a field office or COIC site, a
Field for Other Investigation       record is created for the OIC on the campus portion of the
                                    AOIC System with a “New” status. The OIC is kept in a
                                    queue until the OIC unit at the campus accepts the transfer.
                                    An OIC unit does not accept an OIC into inventory until it
                                    receives the associated paper case file with all required
                                    information. If any required information is missing, the
                                    OIC unit should contact the originating office and request
                                    the missing information. If the missing information is not
                                    received within 5 days, the OIC unit should return the case
                                    to the originator.
                                    At the time of our review, there were 1,745 OICs in New
                                    status at the 2 campuses we visited, 78 of which had been in
                                    the New status for over 1 year. Based on a review of 10 of
                                    these 78 OICs, controls need to be improved to ensure New
                                    OICs are actually received at the campuses and are returned
                                    to the campuses if they had been sent back to the originating
                                    offices. Our review specifically determined that:
                                       •   The campuses could not locate the case files for five
                                           of the OICs and could not determine if the files were
                                           ever received or if they were received and had been
                                           returned to the originating offices. These OICs were
                                           in New status from 17 to 30 months (an average of
                                           23 months) prior to our review. In 2 of the 5 OICs,
                                           the taxpayers were not current in their
                                           5-year filing and/or payment requirements, so the
                                           OICs should have been defaulted.
                                       •   The campuses received the case files for three OICs
                                           but had to return them to the originating offices.
                                           These OICs were not timely returned to the
                                           campuses. For 1 OIC, the case file was returned to
                                           the campus after approximately 32 months in the
                                           field. According to the campuses, the field offices
                                           had not yet returned the other 2 OICs. These cases
                                           had been sent back to the originating offices 19 and
                                           30 months prior to our review.
                                       •   The campus received the file for one OIC; however,
                                           it was never accepted into inventory on the AOIC
                                                                                          Page 8
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                 but Some Improvement Is Needed

                              System for monitoring. A copy of the taxpayer’s
                              check dated March 2001 for the OIC amount was in
                              the case file, but the payment had not been processed
                              or posted to the taxpayer’s account.
                          •   The case file for 1 OIC had been controlled on the
                              AOIC System but not until approximately 27 months
                              after the OIC was accepted. We cannot determine if
                              the OIC had been timely received at the campus.
                       At the remaining 6 campuses that monitor accepted OICs,
                       there were an additional 1,681 OICs in New status,
                       153 (9 percent) of which had been in that status for more
                       than 1 year.
                       Campuses are not required to verify receipt of case files
                       from the originating offices or follow up on New OICs that
                       are returned to the field. Since the OICs have not been
                       accepted for monitoring, the AOIC System cannot be
                       updated to reflect cases that have been returned to the field.
                       Thus, the campuses cannot identify those cases in New
                       status that have never been received or were sent back to the
                       originating office and not returned to the campuses.
                       Without adequate controls to ensure newly accepted OICs
                       are received in the campuses or returned to the campuses if
                       sent back to the originating offices, monitoring of the
                       acceptance terms cannot be initiated.
                       OICs sent back to the field for other investigation are
                       not timely returned to the campuses
                       After an OIC has been accepted into inventory by an OIC
                       unit at a campus, additional fieldwork may be necessary,
                       such as if the taxpayer requests an extension to pay of more
                       than 6 months. Campus OIC examiners use a Courtesy
                       Investigation (Form 2209) for this purpose. When a
                       Form 2209 is issued, the OIC is placed in Other
                       Investigation (OI) status on the AOIC System.
                       Responses to Forms 2209 are due 90 calendar days from the
                       date of issuance. If a response is not received by the due
                       date, the campus OIC unit should send a list of overdue OIs
                       to the SB/SE Division Territory Office or COIC site
                       Director requesting a status update. If there is no response


                                                                              Page 9
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                 but Some Improvement Is Needed

                       to this request, the campus OIC unit should send the OIC to
                       the SB/SE Division Territory Office or COIC site.
                       At the time of our review, there were 272 OICs at the
                       2 campuses we visited that had been returned to the field for
                       additional work, 68 of which had been in the field for over
                       1 year. Based on a review of 10 of the 68 OICs, controls
                       need to be improved to ensure that OIs are timely worked by
                       field offices, campuses follow up when OIs are not timely
                       worked, and campuses take appropriate actions when the
                       OIs are closed.
                       Our review of the 10 cases determined:
                          •   In 1 case, an OI had never been issued, and the OIC
                              was incorrectly placed in OI status for 18 months.
                          •   In one case, the OI was timely completed, but the
                              AOIC System had not been updated from OI status.
                          •   In eight cases, the OIs were not completed by the
                              original or extended due dates, and there was no
                              follow-up with the field offices as required. At the
                              time of our review, 6 of these 8 OIs had been and
                              were still open in the field from 11 to 46 months (an
                              average of 24 months) from the original or extended
                              due dates of the OIs. All 6 of these OICs should
                              have been defaulted for either nonpayment of the
                              OIC or noncompliance with the 5-year requirement.
                       According to personnel at both campuses, they were aware
                       of the requirement to follow up on overdue OIs but did not
                       follow the requirement.
                       At the remaining 6 campuses that monitor accepted OICs,
                       there were 599 OICs in OI status, 267 (45 percent) of which
                       had been in that status for more than 1 year.
                       The monitoring of OICs can be interrupted while the OIC
                       has been returned for additional action. If OICs are not
                       timely returned to the campuses, potential noncompliance
                       may not be identified and corrected.




                                                                            Page 10
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                 but Some Improvement Is Needed

                       Recommendations

                       The Director, Filing and Campus Compliance, SB/SE
                       Division, should:
                       4. Require campuses to periodically generate AOIC
                          System reports of New cases and validate receipt of case
                          files. If the files are not received, campuses should be
                          required to follow up with the originating offices.
                       Management’s Response: SB/SE Division management has
                       revised the IRM instructing management to generate and
                       review a New Work listing every 30 days for cases that have
                       not been accepted into the campus inventory. Management
                       must validate receipt of the case files and required
                       documentation. Case files not received as listed, and those
                       received with incomplete or missing required
                       documentation, should be resolved within 15 days. Those
                       not resolved in the 15-day period will be returned to the
                       originator. These revisions are in a pending publication of
                       the IRM.
                       5. Create a new status on the AOIC System for newly
                          accepted OICs that are returned to the originating offices
                          before the OICs are accepted for monitoring, establish
                          criteria and timeliness guidelines for the originating
                          offices to work returned OICs, and require the campuses
                          to periodically generate AOIC System reports on the
                          new status code and follow up with the originating
                          offices to ensure the files are timely returned.
                       Management’s Response: SB/SE Division management has
                       created two new subcodes (missing case and incomplete
                       case) under the AOIC System’s status code New Work.
                       They have established a 15-day response time for
                       originating offices to submit or perfect incomplete work.
                       The IRM has been revised to ensure the files are returned
                       timely. These revisions are in a pending publication of the
                       IRM.
                       6. Direct campuses to generate a list of overdue OIs for
                          forwarding to the SB/SE Division Territory Offices or
                          COIC site Directors requiring they provide a status
                          update.


                                                                            Page 11
            Monitoring of Accepted Offers in Compromise Is Generally Effective,
                             but Some Improvement Is Needed

                                   Management’s Response: SB/SE Division management has
                                   revised the IRM to ensure the campuses receive a response
                                   from the originating offices by adding instructions for
                                   management to generate a quarterly report on OIs. The
                                   beginning date for the report will be 90 days before the run
                                   date to identify overdue responses and will alert the tax
                                   examiners to follow up with the Territory Offices or COIC
                                   sites. These revisions are in a pending publication of the
                                   IRM.
                                   7. Require the campuses to periodically generate reports of
                                      OICs in certain statuses (such as potential default) on the
                                      AOIC System for 1 year or longer and require review of
                                      these OICs to determine if they are in the correct status
                                      and if timely and effective action is being taken. This
                                      recommendation pertains to both Finding Number 2 and
                                      Finding Number 3.
                                   Management’s Response: SB/SE Division management has
                                   revised the IRM instructing management to generate a
                                   quarterly report on current open OICs on the AOIC System
                                   for all statuses, except for payment monitoring and 5-year
                                   monitoring, to determine if they are in the correct status and
                                   if timely and effective action is being taken. These
                                   revisions are in a pending publication of the IRM.
                                   The Director, Payment Compliance, SB/SE Division,
                                   should:
                                   8. Direct Territory Offices or COIC sites to timely work
                                      and respond to OIs received from campus OIC units.
                                   Management’s Response: SB/SE Division management will
                                   review existing IRM guidance in this area and determine
                                   situations in which the use of OIs to resolve back-end OIC
                                   issues is necessary. They will ensure OI requests are
                                   appropriately made by campuses to maximize field
                                   resources. Once the review is complete, IRM procedural
                                   guidance will be updated and distributed to the campus OIC
                                   units. In addition, direction will be issued to the field
                                   regarding the need to process this work timely.
                                   After a taxpayer fulfills the OIC payment terms, any liens
Federal Tax Liens Are Not
                                   filed on the accounts covered by the OIC must be released.
Always Released When the Offer
                                   I.R.C. § 6325 requires the issuance of a release of Federal
Amount Has Been Fully Paid
                                                                                         Page 12
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                 but Some Improvement Is Needed

                       Tax Lien within 30 calendar days of the date on which a
                       liability is satisfied.5
                       Federal Tax Liens were not always released or timely
                       released when OIC payment terms were fulfilled. The
                       84 OICs reviewed were filed for 428 tax periods. Federal
                       Tax Liens had been filed on 254 of these tax periods. Our
                       review showed that the Federal Tax Liens were:
                           •   Properly released on 79 of the 254 tax periods.
                           •   Not released at the time of our review for
                               9 taxpayers involving 16 tax periods. These
                               9 taxpayers had fully paid their OIC amounts from
                               387 to 1,616 days (an average of 1,023 days) prior to
                               our review.
                           •   Released, but not within the required 30 calendar
                               days after the OIC was fully paid, for 37 taxpayers
                               involving 159 tax periods. The liens were released
                               from 32 to 1,410 days (an average of 227 days)
                               beyond the OIC terms’ fulfillment dates.
                       Procedures require the campuses to notify field offices to
                       release liens when the offer amount has been fully paid.
                       However, there are no controls to ensure this is done or
                       done timely. The IRS recently completed a study to
                       determine whether allowing the OIC examiners to have
                       direct access to the Automated Lien System (ALS)6 would
                       streamline the release process by saving time to prepare and
                       ship paper forms via mail or fax to the Area ALS Units and
                       would, most importantly, reduce delays that cause
                       unnecessary burden on taxpayers. We were advised that the
                       process would be implemented nationwide on
                       November 1, 2003.
                       Taxpayers’ rights are violated and their burden is increased
                       if the IRS does not timely release Federal Tax Liens when
                       the OIC terms are fully paid. In addition, taxpayers can file
                       suit against the IRS if any IRS employee knowingly or
                       negligently fails to release a lien as required.


                       5
                         I.R.C. § 6325 (2003).
                       6
                         The ALS is the IRS database that prints Notices of Federal Tax Liens,
                       stores taxpayer information, and documents all lien activity.
                                                                                      Page 13
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                 but Some Improvement Is Needed

                       Recommendation

                       The Director, Filing and Campus Compliance, SB/SE
                       Division, should:
                       9. Ensure timely implementation of the process allowing
                          OIC examiners access to the ALS to release liens and
                          review the process to ensure liens are being correctly
                          released.
                       Management’s Response: SB/SE Division management has
                       provided an ALS train-the-trainer session to the Wage and
                       Investment Division and SB/SE Division management and
                       lead tax examiners. Campus examiners can now access the
                       ALS database and request release of liens following full
                       payment of the offer amount. The Director, Filing and
                       Campus Compliance, SB/SE Division, will review the
                       process during scheduled visits in the second quarter of
                       FY 2004.




                                                                           Page 14
             Monitoring of Accepted Offers in Compromise Is Generally Effective,
                             but Some Improvement Is Needed

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of the Internal Revenue
Service’s (IRS) monitoring of accepted Offers in Compromise (OIC) to ensure the taxpayers
comply with the terms of the agreement and future filing and paying compliance terms. To
accomplish this objective, we:
I.      Determined if defaulted OICs were timely identified by the IRS.
        A. Held discussions with OIC Small Business/Self-Employed and Wage and Investment
           Division program analysts and OIC unit managers at the Austin, Texas, and
           Philadelphia, Pennsylvania, Campuses1 to determine procedures for monitoring
           accepted OICs. We selected the Austin and Philadelphia Campuses as being
           representative of the IRS’ operations in processing accepted OICs.
        B. Obtained a computer extract from the Automated Offer in Compromise (AOIC)
           System2 of all 30,439 accepted OICs with a legal disposition date of Fiscal
           Year (FY) 1999.
        C. Reviewed a statistical sample of 84 of the 28,018 “doubt as to collectibility” OICs
           identified from step B that were still open in acceptance status at the time of the
           computer extract. The sample was based on a 95 percent confidence level, a
           precision level of + 4 percent, and an expected error rate of 3.57 percent.
        D. From the Austin and Philadelphia Campuses, obtained reports of all 1,788 OICs open
           on the AOIC System in a potential default status, all 1,745 OICs closed by the field as
           accepted but not yet controlled by the campuses, and all 272 OICs that had been
           returned and were currently open in the field for additional action. We queried the
           AOIC System for the same reports for the other six campuses that monitor accepted
           OICs.
        E. Analyzed the reports obtained in Step D to determine the age of the OICs.
        F. Reviewed a judgmental sample of 40 of 424 OICs accepted by the Austin and
           Philadelphia Campuses that had been in potential default status for the nonpayment of
           OIC amounts or noncompliance with the 5-year compliance requirements for more
           than 1 year at the time of our review. We selected a judgmental sample since we did
           not want to project the results.


1
  An IRS campus is the data processing arm of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.
2
  The AOIC System is the IRS database used to monitor OIC case processing; it was designed to control, track, and
monitor OICs.
                                                                                                         Page 15
          Monitoring of Accepted Offers in Compromise Is Generally Effective,
                          but Some Improvement Is Needed

      G. Reviewed a judgmental sample of 10 of 78 accepted OICs that had not been accepted
         into the OIC units’ inventories for monitoring in the Austin and Philadelphia
         Campuses for more than 1 year after acceptance. We selected a judgmental sample
         since we did not want to project the results.
      H. Reviewed a judgmental sample of 10 of 68 accepted OICs that had been returned to
         the Territory Offices for some type of action and had not been returned to the Austin
         or Philadelphia Campus for more than 1 year according to the AOIC System. We
         selected a judgmental sample since we did not want to project the results.
      I. Reviewed taxpayer accounts for the 428 tax periods relating to the statistical sample
         of 84 OICs identified in Step C to determine if Federal Tax Liens had been released
         as required when the OIC terms were fully paid.
II.   Determined what action the IRS took when it identified cases in which the taxpayers had
      defaulted on their OICs.
      A. Selected a statistical sample of 280 of the 2,119 “doubt as to collectibility” OICs
         accepted in FY 1999 that were identified in Step I.B above, and which were closed as
         defaulted, to determine what collection action was taken on the accounts subsequent
         to the default action. The sample was based on a 95 percent confidence level, a
         precision level of + 5 percent, and an expected error rate of 30 percent. Since the
         review did not disclose any issues, we stopped the review at 75 cases.




                                                                                        Page 16
           Monitoring of Accepted Offers in Compromise Is Generally Effective,
                           but Some Improvement Is Needed

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Preston B. Benoit, Acting Director
Amy L. Coleman, Audit Manager
James D. Dorrell, Senior Auditor
Lynn A. Rudolph, Auditor
Rashme Sawhney, Auditor




                                                                                       Page 17
          Monitoring of Accepted Offers in Compromise Is Generally Effective,
                          but Some Improvement Is Needed

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Filing and Campus Compliance, Small Business/Self-Employed Division
SE:S:C:CP:FCC
Director, Payment Compliance, Small Business/Self-Employed Division SE:S:C:CP:PC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 18
            Monitoring of Accepted Offers in Compromise Is Generally Effective,
                            but Some Improvement Is Needed

                                                                                    Appendix IV


                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $1,865,916 for 26 taxpayers whose Offers in Compromise
    (OIC) should have been defaulted and the taxpayer accounts placed back into active
    collection status. While we recognize that not all of the balance due amounts will be
    collected because it is likely that some of the taxpayers will be unable to fully pay, no
    collection activity was taking place on these accounts at the time of our review (see page 3).
Methodology Used to Measure the Reported Benefit:
We selected a judgmental sample of 40 OICs from a population of 424 OICs that were in
potential default status for more than 1 year at the time of our review on the Automated Offer in
Compromise System for either noncompliance with the OIC payment terms or the 5-year
compliance requirement. We selected a judgmental sample since we did not want to project the
results.
Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; nine taxpayers whose Federal Tax Liens had not
    yet been released by the Internal Revenue Service (IRS) (see page 12).
•   Taxpayer Rights and Entitlements – Potential; an additional 37 taxpayers whose Federal Tax
    Liens were not timely released by the IRS (see page 12).
Methodology Used to Measure the Reported Benefit:
We originally selected a statistical sample of 319 OICs from the population of 28,018 “doubt as
to collectibility” OICs that were accepted in Fiscal Year 1999, based on a 95 percent confidence
level, a precision level of + 5 percent, and an expected error rate of 30 percent. We used a
statistical sample to project how many of the 28,018 OICs were not in compliance with all the
OIC terms (thus, the OICs should have been defaulted). After our review of 69 OICs, we
recalculated the error rate to be 5.8 percent. Based on the new “expected” error rate, our sample
size was decreased to 84 OICs. After reviewing the 84 OICs in our sample, we determined the
actual error rate was 3.57 percent, which changed the precision level to + 4 percent. We cannot
project the number of taxpayers whose Federal Tax Liens were not released or not timely
released because the original sample was not taken based on lien filing.



                                                                                            Page 19
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                but Some Improvement Is Needed

                                                                Appendix V


         Management’s Response to the Draft Report




                                                                      Page 20
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                but Some Improvement Is Needed




                                                                      Page 21
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                but Some Improvement Is Needed




                                                                      Page 22
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                but Some Improvement Is Needed




                                                                      Page 23
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                but Some Improvement Is Needed




                                                                      Page 24
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                but Some Improvement Is Needed




                                                                      Page 25
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                but Some Improvement Is Needed




                                                                      Page 26
Monitoring of Accepted Offers in Compromise Is Generally Effective,
                but Some Improvement Is Needed




                                                                      Page 27
